■

USCA11 Case: 20-14580

Date Filed: 04/30/2021

Page: 1 of 3

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-14580
Non-Argument Calendar

D.C. Docket No. l :84-cr-00499-JIC-3
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus >
ROBERTO LUIS RENE MARTINEZ,
Defendant - Appellant.

Appeal from the United States District Court
for the Southern District of Florida

(April 30, 2021)
Before WILSON, ROSENBAUM, and ANDERSON, Circuit Judges.
PER CURIAM:
Roberto Martinez appeals the district court’s order denying his “motion to
correct the judgment and commitment order [(“J&C”)].” The government has
responded by moving for summary affirmance and to stay the briefing schedule.

USCA11 Case: 20-14580

Date Filed: 04/30/2021

Page: 2 of 3

Summary disposition is appropriate either where time is of the essence, such
as “situations where important public policy issues are involved or those where
rights delayed are rights denied,” or where “the position of one of the parties is
clearly right as a matter of law so that there can be no substantial question as to the
outcome of the case, or where, as is more frequently the case, the appeal is
frivolous.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
An appeal is frivolous if it is “without arguable merit either in law or fact.” Napier.
v. Preslicka, 314 F.3d 528, 531 (11th Cir. 2002).
Under Fed. R. Crim. P. 35(a), district courts have 14 days to correct a sentence
that resulted from arithmetical, technical, or other clear error. Id. A motion to alter
or amend a judgment must be filed no later than 28 days after the entry of the
judgment. Fed. R. Civ. P. 59(e).
Flere, there is no substantial question that the district court did not err in
denying Martinez’s judgment because there was nothing it could do to correct the
i

J&C. First, Martinez’s motion was untimely, as it was filed 14 years after his
conviction was vacated, well past the 28-day time limit. See id. Moreover, the
district court vacated the conspiracy count in 2006 and, thus, there was nothing more
for the district court to do as it is past the 14-day limit under Rule 35(a). See Fed.
R. Crim. P. 35(a). Additionally, Martinez’s statements concerning his motion for
compassionate release are not properly before this Court in the instant appeal,
2

.

USCA11 Case: 20-14580

Date Filed: 04/30/2021 . Page: 3 of 3

because Martinez appealed the denial of that motion in a separate appeal before this
Court However, even where the district court mentioned his Count 4 in its order
denying his motion for compassionate release, it simply noted that Count 4 was
subsumed into Count 3 for sentencing purposes. Accordingly, the government’s
motion for summary affirmance is GRANTED and its motion to stay the briefing
schedule is DENIED as moot.

!

3

Case:
l:84-cr-00499-JIC
-i

/

Document#: 1063 Entered on FLSD Docket: 11/18/2020
Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 84-00499-CR-COHN

UNITED STATES OF AMERICA,
v.
ROBERTO LUIS RENE MARTINEZ,
Defendant.

ORDER DENYING MOTION TO CORRECT JUDGMENT
THIS CAUSE is before the Court upon Defendant Roberto Luis Rene Martinez’s
Motion to Correct Judgment and Commitment Order (“Motion”) [DE 1061], The Court
has considered the Motion, the record in this case, and is otherwise advised in the
premises.
In 1987, Defendant was convicted of engaging in a continuing criminal enterprise
(Count 3), conspiracy to import methaqualone (Count 4), and traveling or causing others
to travel in foreign commerce with the intent to carry on a business enterprise involving
controlled substances (Count 5) in violation of 21 U.S.C. §§ 848, 952(a) and the Travel
Act, 18 U.S.C. § 1952, respectively. The Court sentenced Defendant, under pre­
guidelines law, to 35 years of imprisonment on Count 3, consecutive to his previous
unexpired attempted murder conviction, and 5 years of imprisonment on Count 5, to be
served concurrently to his conviction on Count 3 (Count 4 was subsumed into Count 3
for purposes of sentencing). The Eleventh Circuit affirmed Defendant’s conviction and
sentence on direct appeal in 1988.

: i

*.

oase: x:e>4-cf-uu4yy-Jio

uucurnerii ff: xuoj tmereu un i-lou uucKei: xx/xo/zuzu

Page 2 of 2

Subsequently, in 2002, in connection with an appeal of Defendant’s post­
conviction claims, the Eleventh Circuit instructed the Court to vacate Count 4 because it
was a lesser included offense of Count 3. DE 995; DE 1041. The Eleventh Circuit
noted, however, that a resentencing was not required because Defendant had not been
sentenced on Count 4. Jd Ultimately, the Court did vacate Count 4 on August 17,
2006. DE 1017.
In his Motion, however, Defendant asserts that his Judgment still shows Count 4
as not having been vacated and, accordingly, asks the Court to “correct” the Judgment.
DE 1061. As noted above, the Court already vacated Count 4 fourteen years ago and,
in any event, Defendant was never sentenced on Count 4. Thus, it is unnecessary at
this stage to “correct” Defendant's Judgment. Accordingly, it is
ORDERED AND ADJUDGED that Defendant Roberto Luis Rene Martinez’s
Motion to Correct Judgment and Commitment Order [DE 1061] is DENIED.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County,
Florida, this 18th day of November, 2020.

X
r: JAN ES I. COHN
Uni 2d States District Judge\

Copies provided to:
Counsel of ,record via CM/ECF
Pro se parties via U.S. mail to address on file
i
!

2

